                  CHILD SUPPORT ENFORCEMENT




                          ABSENT PARENT





                        MEDICAL LIABILITY




  OFFICE OF INSPECTOR
                               GENERAL
    OFFICE
             OF    ANAL YSIS AND INSPECTIONS



NATIONAL PROGRAM
                         INSPECTION            SEPBE 1987
                       CHILD SUPPORT ENFORCEMENT/


                              ABSENT PARENT

                            MEDICAL LIABILITY





RICHARD P. KUSSEROW

INSPECTOR GENERAL                                    SEPTEMBER 1987



Control #OAI-07-86-00045

                                                                ..


                            Table of Contents


                                                                 Paqe
Executive Sumary
                                                                     . 1

In troduct ion. 

     Background. . 

    Objectives. .
                                                                     . 3

    Methodology
                                                                  . 4

Findings
                                                                 . 6

Recommendations
                                                                 . 9

Append ix


             Method Used to Determine Per-Case
                                                 Savings. .

             Savings Projections (Co-Pay/Deductible Applied).
           Savings Projections (Co-Pay/Deductible Not Applied)
           Absent Parent Profile   Data.                        . 14

           Statistical Data by State

                                                                . 15

           Comments to Draft Report. . 

                                                                . 16

                                 EXECUTIVE SUMMARY


 PURPOSE   The purpose of this inspection was
 whether the Child Support Enforcement 
             (1) to determine
 absent parents to provide medical support for their dependent

                                       (CSE) program        is requir ing
 children and (2) to provide an early alert to vulnerabilities

 the program and poten tia1 Medicaid sav
                                                 ings.
                                               This of
 covered the three months after the effective date  inspection

                                                       the

 regulations requiring medical 

                                support, and is the first of a

 ser ies of inspections we plan to conduct involving court-
 medical support.          Future inspections will deal wi           ordered
                                                  th why medical

 support is not included in new or amended court orders and wi
 the coordination and exchange of information between State CSE
 agencies and State Medicaid
                                     agencies.
 The overall objectives of the
                                       inspection were to determine:

     the extent to which State CSE agencies are petitioning the

     courts to include medical support 

     court orders 

                                       in all new and amended


     the avai1abi1 i ty      of affordable employer- prov ided
     heal th   insurance
                                                                 dependent
     the extent to which State CSE agencies are taking steps to

     enforce the health insurance coverage required by the support

    order      and
    the amount of dependent child health care expenditures the
    Medicaid program would avoid
                                  if State CSE agencies more
    str ict1y enforced new and existing regulations.
BACKGROUND     For the past decade, Congress has expressed concern
about the responsibility of absent parents to provide medical
support for their dependent         children.
Anti-Fraud and Abuse Amendments of 1977The  Medicare-Medicaid
                                         (Public Law
                                                      95-142) added
Section 1912 to Title XIX (Grants to States for Medical

Assistance) of the Social Security
                                           Act.
                                          Thismedical
permits State Medicaid agencies to establish   sectionsupport
                                                        of the Act
enforcement programs.
Regulations published February
                                11, 1980,
1912 of the Act promoted cooperative      to implement
                                      agreements betweenSection

                                                          State CSE

and Medicaid agencies to obtain third-

information. Most States elected not toparty liability (TPL)
                                          enter into cooperative

agreements because the Federal funding rate 

                                             for from
program is lower than the amount States receive  the Medicaid

                                                      the Federal
Government for child support collections.
                                            Therefore
were proposed by the Department of Health and          regulations
                                              Human Serv
(HHS), Off ice of Child Support Enforcement               ices
to " require " enforcement of medical support.
                                            (OCSE), in August 1983

 These regulations were not finalized until October 

 after Congress passed the 1984 CSE Amendments, which 16, 1985,

                                                        prov ided
 that the Secretary issue regulations to require State CSE
 agencies to petition for the inclusion of medical support as part
 of any child support order.   The OCSE auditors, as part of the i r
mandated audi t responsibili ties in fiscal year 1986 are to ensure
 that State CSE agencies are in compliance with these
                                                        regulations.
The section of these regulations relating to medical support
which b came effective December 2, 1985, requires State CSE

agencies to: (1) inform any individual who applies
                                                      for State CSE

assistance  in the collection of child support payments that

medical support enforcement services are
                                          available;
medical support in new and amended court orders dated(2)   include
                                                         on or after
December 2, 1985; (3) enforce medical support obligations,
obtaining the absent parent' s place of employment,
whether the absent parent has a health               information on
so, the pol icy name and names of persons covered; and and, if
                                         insurance policy
heal th insurance information obtained on absent parents(4)  share
                                                           with
State Medicaid agencies.
These regulations were an outgrowth of a 1981 Off 

                                                  ice of Inspector

General study, " An Assessment of Child Support Enforcement.
METHODOLOGY   New and amended court orders established during the
first quarter immediately following the effective date of the new
regulations (January-March 1986) were selected using a two- stage
sampling design. Nine States were selected with probability
proportional to size, and 40 cases from each State were selected
by simple random sampling.


MAJOR FINDINGS:
   The Medicaid program would have avoided spending over

   $33 million annually if absent parents had their dependents

   enrolled in available emp 1 oyer- prov ided
                                               health insurance.
   Over $26 million of the total Medicaid savings 

                                                   (79 percent)

   would have come from cases in which medical support  was not

   included in the court order. All of these cases should have

   contained court- ordered medical support, but only 43 percent
   did.
   In 112 of the 323 cases in our study
                                         (35 perc 2nt), the absent
   parent had dependent children enrolled
   health insurance, including 78 cases (24inpercent)
                                              employer group
                                                       in which
   the Medicaid child was among the dependents
                                                enrolled.

   Medicaid was paying for these enrolled dependent'

   care.                                              s medical

   In 266 of the 323 study cases (82 percent), State CSE agency

   case files contained the information needed to contact the

   absent parent' s employer or the absent parent to determine
   whether the employer offered group health
                                              insurance.
      In 194 of the sample cases ( 60 percent), the employer shown
      in the CSE case file prov ided group health insurance to the

      absent parent for dependents. No dependent heal th insurance
      was found to be available in 129
                                       (40 percent) of the sampled
      cases.
     Proposed regulations dated May 27, 1987, when
     enforced would add another $77, 343,            finalized, and
     annually.                            104 in Medicaid savings

 RECOMMENDATIONS:

 The Off ice of Inspector General
 make medical support enforcement (OIG) recommends
                                  a higher  prioritythat the OCSE

                                                      activity to

 ensure State compliance with the regulations requiring that State

 CSE agenc ies:
     peti tion the court or admin istrative author
                                                 i ty, in all to

     and amended court orders, to require the absent parent   new
     prov ide available health insurance for dependent
                                                          children;
     require absent parents to notify the court or State CSE

     agency when insurance coverage had been
                                              obtained;
     gather medical support information 

     to the State Medicaid agency;      on CSE cases and submit


     request employers to advise them when an absent parent'

    heal th    insurance coverage lapses;
    improve audit procedures for and reviews of medical support

    enforcement; and

    finalize rules requiring identification of high priority CSE

    cases and peti tions for inclus ion of medical support
    orders.                                                in court


RESPONSE TO DRAFT REPORT:


The Family Support Admin   istra tion
                                  (FSA) and the Health Care
Financing Administration (HCFA) have agreed with these findings
and recommendations. The FSA/OCSE is making medical support a
high priority.




                                     i ii

                                                       INTRODUCTION



  SA CKGROUND'

 For the past decade, Congress has expressed concern about the

 responsibi1i ty of absent parents to provide medical support for

 their dependent children. The Medicare-Medicaid Anti-Fraud and

 Abuse Amendments of 1977 (Public Law 95-142) added Section 1912

 to Title XIX (Grants to States for Medical Assistance) of the

 Social Security                        Act.
                        This section of the Act permits State

 Medicaid agencies to establish medical support enforcement

 programs. State Medicaid agencies were to use the State Child

 Support Enforcement (CSE) agencies to enforce absent parent

 medical support in order to eliminate establishment of a separate
 State Medicaid medical support system.
Regulations published February 11, 1980, implemented Section 1912

 of the Act.  These regulations promoted cooperative agreements
between State cSE and Medicaid agencies to obtain third-

 liability                                                  party
           (TPL) information in an effort to reduce or eliminate
Medicaid payments where TPL was
Regulations (CFR) 42, Part 433. 136, def ines "The Code of Federal      available.
 any individual, entity or program that 
       third party " to mean
pay all or part of the medical cost of    is or  may be liable to

disability of an applicant or recipient. injury,  disease, or


Most States elected not to enter 

                                 into cooperative agreements

because the rate of Federal funding for the Medicaid program 


lower than the amount States receive from the Federal Government

for child support collections. Therefore, the incentive is to

use available State resources to collect cash child support

payments from absent parents. The collection of child support

payments renders a higher return on expended State resources than

the identification of absent parent private health insurance to

reduce Medicaid expenditures.
Due to limited participation and minimal TPL detection and
collection under cooperative agreements, regulations were
proposed in August 1983 to " require " enforcement of medical
support by the Department of Health and Human Services
Off ice of Child Support Enforcement                                                        (HaS),
were finalized after Congress                                           (OcSE).  These regulations
                                                                  passed the 1984 cSE Amendments

(Public Law 98-378), adding Section
452(f) to the Social Security
Act.


                                                                 -1­

 Th is section requires the Secretary of HHS to issue regulations

 rRquiring State agencies administering the child support enfor­

 cement program to petition the courts for 

 support as part of all child support orders    inclusion of medical

 el ig i ble children in the Aid to Famil ies wi involving Medicaid

 Ch i Idren (AFDC) program whe ther or not reasonably
                                                 th Dependent

                                                       pr iced heal

 insurance is available at the time the order 

 mod if ied. If health insurance                   is entered or

                                    is available to the absent parent

 at a reasonable cost and has not been obtained at the time the

 order is entered, CSE is to take steps to enforce the health

 insurance coverage required by the support order and provide

 insurance information to Medicaid.  The regulations, issued by

                                                                  this
 the Secretary on October 16, 1985, define  " health insurance to be
 reasonable in cost
 health insurance.
                      if it
                          is employment- related or other group
                     TheSe regulations require State cSE agencies

 to:
       inform any individual who applies for State cSE assistance
       the collection of child support payments that medical support
       enforcement serv ices are available;

       include medical support in new and amended court orders dated

       on or after December 2, 1985;

       enforce medical support obligations, by obtaining the absent

       parent' s place of employment, information on whether the
       absent parent has a health insurance policy
                                                    and, if so, the
       pol icy name and names of persons covered; and

       share health insurance information obtained on absent parents

       wi th State Medicaid agencies.

The regulations state that for all cases for which an assignment

 is in effect CSE must collect TPL information 

                                                if it is available

or can be obtained and submi t the medical support  information to

the Medicaid agency. The Medicaid agency is
                                               responsible for
entering the information into its system to prevent   Medicaid from
paying for services covered by private 

                                         insurance.  The

regulations also state that, while the total amount that will be
spent on medical care for dependent children of absent parents
will not change sUbstantially, the financing of medical coverage
will shift from the Medicaid program and taxpayers to
thi rd- party payors, and employers and employees who payparents,
                                                           premiums.
In comments included in the publication of final regulations
da ted October 16, 1985, four State agencies raised the
 ot being paid for enforcement of medical support        issue of
The reply was that the feas ibili ty                activities.
based on the avoidance of Medicaid of   providing
                                     costs will beincentives
                                                   addressed to
                                                             
 CSE
                                                              later,


                               -2­

  and that from a broad State and Federal perspective these efforts

  will be as advantageous in terms of State and Federal savings as

 pursui t of cash support. This same issue also was mentioned by

 CSE staff interviewed during this study. One
 compared the situation to a salesman who receives               State  cSE Director

                                                                     a commission  on

 refrigerators but not ranges, and said
 anyone to find that the salesman was not            itselling
                                                             should not
                                                                    any surprise

                                                                         

 same thing  is true of the cSE program. Since CSE agencies
         ranges.      The
 receive Federal funds for cash child support                   collections but not

 for obtaining medical support information,
                                
           their emphasis 

 support collections.                                                         is




Thus, there is little incentive for State cSE agencies to

 identify TPL.  States receive the amount they paid out
Families with Dependent Children                           in Aid to

                                 (AFDc)
collections plus an incentive payment  of from the 6
                                           between child
                                                     to 
support

of their cOllections, based on the cost effectiveness of 10 their

                                                            percent

collection activity. Nationally in FY
received 33 percent of the collections 85,   the Federal Government

                                        and paid
collection costs. The States received 50 percent70ofpercent
                                                       the
                                                              of the
collections and paid 30 percent of the
                                                  cost.
The OCSE audit staff are responsible to ensure State compliance with

these regulations, including the provision of medical support 

all new and amended court        orders.
                                    The OCSE audits are required
to follow the audit standards promulgated by the Comptroller
General of the the United States in the "
                                          Standards for Audit of
Governmental Organizations, Programs, Activities  and Functions.

The OCSE Audit responsibilities encompass both the 

medical support in new and amended court orders and inclusion of

                                                     enforcement
of " reasonable cost" absent parent health            insurance.


OBJECTIVES

The objectives of this inspection were to
                                                     determine:
    if State CSE agency case files contained the
    needed to contact the absent parent'          information
                                         s employer
    parent to determine the availability of employerorgroup
                                                       the absent
                                                            health
    insurance for their dependents;
    the extent to which health insurance coverage is available

    for absent parents ' dependents through the absent parents

    employers;
    the extent to which State cSE agencies are petitioning the

    court or administrative authority to include medical 

                                                         support
    in absent parents' child support orders dated on or after

    December 2, 1985 (effective date of the
                                            regulations); and


                                    -3­
           the amount Medicaid will save if absent parents use available

           private health insurance to pay for their 

           care.                                     dependents' medical

 This inspection
                          is the first in a series of inspections the OIG

 plans to conduct involving court- ordered medical support.
 an early alert that reflects what CSE was doing to                  It

 regulations during the first 3 months after the effective   implement  the
 date.           The findings highlight specific areas, such as whether

 current court orders contain medical
 available for absent parents ' dependents,    support, insurance
                                                    and Medicaid savings

                                                                                               is

 would result from the use of available private
                                                                                    insurance.
 Further work will be conducted to review how well the system 


working 2 years after the regulations were
will update data from this report relating to 
      The OIG
                   issued.
                                               inclusion and

enforcement of court- ordered medical support and will evaluate

the coordination and exchange of third-

State CSE agencies and Medicaid. We willparty information between

                                           also review the imple­
mentation of new regulations currently under
                                                                                  consideration.


 METHODOLOGY

There were 96, 999 new or amended child support court orders
issued nationally between January-March 

                                         1986,
quarter following the effective date of the  HHSthe first full

                                                  Secretary'

                                                             s new

regulations requiring court- ordered dependent medical support.
These cases were reported by OcSE on line SA of form 

                                                       OCSE-56,
 Financial/Statistical Report,
with 41, 329 cases from that universe (42.           Nine States
   " for that quarter.
selected with probability proportional to6 size.
                                            percent)
                                                   
 were

                                                   The States
 ' were
Arkansas, California, Michigan, Missouri, North Carolina,
Pennsylvania, Virginia and Utah.                             Ohio,

Each State provided a list of cases within the designated
quarterly time frame in which the absent parent had made at least
one child support payment. The sample was limited to cases where
the absent parent had made at least one payment, because one
purpose of the study was to identify absent parents with health
insurance coverage available through their
parents who are making support payments are employers.
insurance.                                   more likelyAbsent
employed and, thus, have access to employer group health

At least one child support payment had been made 

                                                         to



(20, 338 of 41, 329) of the court orders establishedinor49.amended
                                                            2 percent

dur ing        the quarter.
                       From these 20, 338 court orders, a simple
random . sample of 40 cases in each of  the nine States
selected to be reviewed for collection of insurance (360) was

                                                                                          information
                                                                  -4­
    and to obtain Medicaid payment histories for the named depend­
    ents.   After selection, thirty-seven of the
    still did not meet the                       360 sample cases
                            inclusion criteria and were deleted from
    the case review process, 

                              leav ing a total of 323 cases for review.
     (A State breakdown of cases which met the selection criteria  

    prov ided in                 Appendix E, page 15.

    Each of the 323 State CSE agency case files which met the

    selection criteria were reviewed
                                                                 to:

             determine if court orders dated January through March 1986

             required the absent parent to provide health insurance

             dependent children;                                                           for
            obtain absent parent employment information to be used
             determining availabil i ty
                                      of affordable heal th insurance; and
            gather information necessary to obtain Medicaid payment
            histor ies for dependents named in support
                                                        orders.
  Eighty-two percent (266   of 323) of the sampled State cSE case
  files contained information needed to contact the absent 

  employers. These employers were contacted to determine the
parents'
  availabil i ty of employer group health insurance for dependent

  children and if the absent parent was enrolled 


  The remaining 57 State cSE cases contained     in a family plan.

                                             inadequate or no

  employer information. Attempts to contact absent parents

  these cases proved unsuccessful.
 Medicaid payment histories were requested for 

 the court orders where employer. group              dependents named in
 available to the absent parent for these   health insurance   was

                                                dependents.
 Medicaid savings were computed based on amounts each absent
 The

 parent' s group health insurance plan would have paid

 specific service paid by Medicaid. We did not contactforMedicaid

                                                                 each
or review their records to determine whether they had 

about available health insurance and procedures               information

assure third party liability payments. The             in place  to

determine per- case savings appears in Appendix   method  used  to
                                                      A, page 10.
The case sample
                  is statistically valid for the nine States

included in the study. Therefore, the findings have been used to

project national savings 
 in those   si
parents' existing employer group health  tuations
                                              
    where the absent

                                              insurance
paid for dependent medical services rather than the      should  have

                                                           Medicaid
program. The savings are based only on those cases where
employer group health insurance 

                                    is available for the absent

parents' dependents, but Medicaid 


medical care.                                               is     paying for the child'




                                                     -5­

                                                          FINDINGS

             Case breakdowns and savings related to the major findings of the
             study are reflected in Exhibit                     1.
                                                The exhibit reflects the
             status of each of the 323 cases included in the
                                                                                        study.
                                                                     Cases
             were broken down into whether medical support was included
             court order, group dependent health insurance               in the
                                                           was available,  and

             the dependents were enrolled. The exhibit also shows the saving

             that would result from using available private health insurance

             rather than Medicaid to pay for the medical care of absent

             parents' CAP) dependents. Savings were divided into four
             A definition of each of the savings groups follows Exhibitgroups.
             These categories also serve as the basis for discussing the
             findings and recommended corrective actions.




                                                          EXHIBIT




                                                             (57)
                                                            Contact



                                                             (72)
                                                            Savings




(19 )Yes                                      Ves (18)




     (19)                                   (18)

   SAVINGS
                                                                           (27)'                     (19)

                                         SAVINGS                         SAVINGS
  GROUP A                                GROUP B                                                    SAY I NGS
                                                                         GROUP C

                                                                                                    GROU P 0


      11, 680 *                                  917*                       38, 270*                         668 *
 $3, 554, 211 **                            632, 054 **               $23, 025, 076**            $3, 683, 166    *i,
   Actual S.vfngs Resul tfng fro. Sa.ple Cases

** Projected Natfonal Savfngs

Definition of Sample Case Savinqs Groups


Private dependent group health insurance 

dependents in each of the four savings   (HI) was available for the

medical care was paid for by Medicaid. categories; however, their

                                                           The four categor ies   are:
     Medical support included in court 

                                       order, dependents enrolled.

     Medical support included in court
     enrolled.                         order, dependents not


     Medical support not incl ied in court order, dependents not

     enrolled.
     Medical support not included in court

    enrolled.                                                order, dependents

Major Findinqs
    The Medicaid program would have avoided spending $33,
    if absent parents in all four savings groups had their894, 507
                                                             depen­

    dents enrolled in available employer-
                                          provided
    insurance and Medicaid had known of and        healththis

                                             acted upon
    information. (See Appendix B, page 12). These    savings were
   found by using information contained in the  

                                                CSE case                    files.
   Over $26 million of the total Medicaid savings
                                                    (79 percent)
   would come from group C and D cases which are case:
   medical upport was not included in the court ordeL ;here
   these cases should have contained court-                All of
   support.                                 ordered medical

   Savings groups A and B are cases in
                                       which the absent parent
   was ordered to provide dependent medical
   categories account for about $7 million             These   support.
   raise questions about whether Medicaid orinCSE
                                               savings and

                                                  failed to act

   on this information.
   Only two of the CSE case files contained information that CSE

   had notified Medicaid about available health insurance

   coverage. We will examine later CSE case files and explore

   the causes for not providing this 

   a later inspection.               information to Medicaid 


   In 266 of the 323 study cases
                                                    (82 percent), State CSE agency

  case files contained the information 


  absent parent'                                            eeded to contact the

                                    s employer or the absent parent to determine
  whether the employer offered group heal thinsurance. We were
  unable to contact 57 (18 percent) of the absent parents or
  their employers.





                                              -7­

    In 194 of the sample cases (60 percent), the employer shown

    in the CSE case file provides group health insurance to the
    absent parent for dependents. Dependent health insurance was
    found to be unavailable in 129 C 40
                                        percent) of the sampled
    cases.
    In 112 of the 323 study cases C 35
    had dependent children enrolled 
  percent), absent parents

                                     in their employer group
   heal th           insurance.
               In 78 of the study cases C 24 percent), the Medicaid
               child was already enrolled. In these cases, Medicaid
               continued to pay for the child' s medical care because
               ei ther 1) the CSE agency had not  learned of this
               enrollment or notified Medicaid, or
                                                    C 2) the Medicaid

               agency had failed to act upon the information.
              In the other 34 study cases 11 percent), the dependent

              childCren) listed on the health insurance policy did not

              include the Medicaid child. In these cases, Medicaid
              could have avoided the. costs of the child'
              if the CSE agency had enforced the Medicaids child'
                                                            medical care
              enrollment in the absent parent' s health
              absent parent would not have incurred any insurance.
                                                          additional The
              cost since dependent coverage was already included 


              the health insurance premiums.

 Review of existing court orders containing medical support

 revealed that State CSE agencies require most absent parents

 to provide their dependents with private health
 coverage and to be responsible for:
            insurance

             all extraordinary medical, dental, orthodontic and

             optical expenses; and


             payment of deductibles, coinsurance and noncovered

             serv ices.


If absent parents were held liable for all such 

Medicaid would obtain additional savings of $7, expenses,

(See Appendix C, page 13).                     095, 387.

Regulations proposed May 27, 1987, when finalized, will

require State CSE agencies to identify existing CSE cases

which have a high priority for obtaining medical 

                                                     support,
 and

to petition the courts for inclusion of medical support
these cases. One potential group of high pr
obtaining medical support are those where     ior i ty cases for
is making a child support payment.        ' the absent parent

If all cases where a collection 

                                     being made by a State                            CSE

agency were considered high pr ior i ty, there would be
                                                                     is


such cases. Establ ishing absent parent court-         418, 478
                                               ordered
support for these cases would save the Medicaid programmedanical
additional $77, 343,                         103.
                         Combined savings from existing and
proposed regulations would be $111,

                                                                          237, 610.
                                                            -8­
                    RECOMMENDA TIONS


 Medicaid would have saved $33, 894, 507 nationally if OCSE ensured
 that State CSE agencies enforced regulations requiring   absent
 parents to enroll their dependent children
                                              in available,

 affordable employer group health
 cases, absent parents would 

                                       insurance. In
                                                   35 percent of the
                               incur no additional insurance cast

 since dependent coverage was already part of their health

 insurance.
Therefore, the OIG recommends that OCSE make medical support

enforcement a high priority activity to ensure State compliance

wi th the regulations requiring that State CSE
                                                  agencies:

    petition the court or administrative authority 

                                                   in provide

    amended court orders to require absent parents to all new and

    available health insurance for their dependent
                                                        children;
    require absent parents to notify the court or CSE when

    insurance coverage has been obtained;
    gather medical support information on CSE cases and submi 

    the information to the State Medicaid 

                                              agency;
    request employers to advise them when
    heal th   insurance coverage lapses;      an absent parent I s
    improve audit procedures for and reviews of medical support

    enforcement; and

    finalize rules requiring identification of high priority CSE

    cases and petitions for incl us ion
    orders.                             of medical support in court

RESPONSE TO DRAFT REPORT:


The Family Support Admin  istra tion
                                  (FSA) and the Health Care
Financing Administration (HCFA) have
and recommendations. The FSA/OCSE is agreed with these findings
                                      making medical support a
high priority.





                               -9­

                            APPENDIX A

            METHOD USED TO DETERMINE PER-CASE SAVINGS




       Employer Contacts - Each absent parent'
       tacted to determine the availability of sgroup
                                                 employer was con­
                                                      health
       insurance coverage for his/her
                                       dependents. Where insurance
       was available, various information
                                           (e.g.,
       name, plan number, deductible, covered  
 insurance company

       etc. ) was obtained from the employer or directly from
                                               services, coinsurance,

                                                              the
       indiv idual insurance company.

       Medicaid Payment Histories
                                  - Usingand
       histories submitted by the States  thethe
                                              Medicaid payment

                                                 Current Procedural
       Terminology (CPT) codes indicated on them, all Medicaid
       billed/paid services were categorized by type of 

                                                        service.

       Listinq of Services - The Medicaid billed/paid ser
                                                          ice of

       information was sorted to produce totals for each type
       service for each dependent in those cases where:


           heal th insurance was available to the absent parent
           dependent coverage; and                                 for
           services fell within each absent 

           da tes for insurance coverage.   parents' eligibility



   Savinqs Computations - Specific policy information collected

    from employer and/or the insurance company was used to

   calculate how much insurance would have paid for ser­

   vices  billed to and paid by Medicaid.
   copayment amounts were applied to billedActual  deductibles
                                             covered  services and
   shown in the following sample
   where the calculated private         calculation.
                                                 In instances
   than the Medicaid allowed/paidinsurance payment was higher
                                   amount, the lower Medicaid

   paid amount was used in the savings  calculation.





A 1



                                 10­
     METHOD USED TO DETERMINE PER CASE SAVINGS (CONTINUED)





      Type                   Billed to              Pa i d
    Serv ice                 Medicaid               Medicaid
  Off ice Vis it              $259.
Hospi tal   Inpatient                                $1 96 . 3 8
 Emergency Room
                               568.                   299.
                                77.                     43. 76
   Eye Care                     40.                    25.
                              $945.                  $564.


   Amount Billed to Medicaid:

                                         $ 945.

   Less Insurance Noncovered

            Serv ices

                                          - 40.    (Eye Care)

                                         $ 905.

   Less Deductible                        -250.
                                         $ 655.

   Less 20% Copay
                                          -131.

   SAVINGS: (Amount that would

                 have been paid by       $ 524.

                 pr i vate insurance)




                                  11­

                                                          APPENDIX B




                                             SA VINGS PROJECTIONS

                                             (CO-PA Y IDEDUCTIBLE APPLIED)


            COURT     PAYINa
STATE                                                  SAVINGS       STATE              STATE                                       TOTAL
            ORDERS    CASES    ANNUAL      SAMPLE                                                     STATE      SMP
                                                        FOUND      PROJ (QRn          PROJ (VR)                                      NAT
                                                                                                      MEAN     PROS                  PROJ
               464       517       068         .40 $1, 770.
              . 857      914   23, 656                              $22, 8BO.          $91, 522.       $44.
                                                40 $19, 831. 65 $2. 932. 109. 45   $11. 72B 437. Bl                    517.     :t6 , 061 , OSB. B7
               960       342   17. 368          40 $10 767. 23 $1, 168 782.                           $495.     10.    167.   $115 437 , 3BO. 02
               651       890      , 560                                                675 131.       $269.           937.
                                                40 $11, 667.      $259 596.            038 384.                                $67 462 211.
                416      798    7,   192            $3, 346.                                          $291.           837.     $17 811 052.
                264      164                                      $150 411.           $601, 644.       $B3.
                                     656            $4. 453.                                                          527.     :$1 7 , 092 186.
            7. 975       767         068
                                                                  $240. 960.          $963, 843.      $111.
                                                    $2, 289.      $215. 604.          $862 416.                       367.     $28 685 816.
                097      334         336                143.       $34. 600.                           $57.      8. 227.       $10 491 690. 7:5
            1 , 645      612         448                                              $138 403.       $103.      1 . 137.
                                                        266.     $126 484.            $505 937.       $206.
                                                                                                                               $12 248 075.
                                                                                                                     707.      $29 761, 056.
    TOTALS 41. 329       338   81, 352        360   $66 536. 73 $5 151, 430. 62 $20 605. 722.
                                                                                                      $184.    HEAN           $33 894, 506.
                                                                                                                VAR           2690251575E+15
                                                                                                                STD            35623379. 3667
                                                                                                              STD ERR          11874459. 7889
                                                                                                              L 907.          $1 4 , 361 . 020. 13
                                                                                                              U 907.          $53 427 992.
                                                                                                                                            35. 037.
                                                            APPENDIX C



                                                    SA VINGS PROJECTIONS
                                               CCO-PA Y IDEDUCTIBLE               NOT APPLIED)


            COURT       PAYING                             SAVINGS      STATE                                                          TOTAL
STATE       ORDERS      CASES      ANNUAL       SAMPLE                                    STATE      STATE         SNP
                                                           FOUND      PROJ caRn                                                         NAT
                                                                                        PROJ (VR)    MEAN         PROB
                  464                                                                                                                  PROJ
                             517         068        . 40     026.
                  857        914        656                             $39 118.              475.
                                                     40 $20 057. 42 $2, 965 489. 55 $11 $156,         $75.              51 X     $10   362 597.
                  960        342        368          40 $12, 298. 09 $1 334 957.         861 958.    $501.        10. 16X       $116   751 556.
                  651        890        560         40 $13 270.                          339 830.    $307.              93X      $77
                  416    1 , 798                                       $295 272.         181 090.                                      053, 833.
                                        192                  098.                                    $331.              83X      $20 258    842.
                  264      164          656                            $274 110.     $1, 096 441.    $152.
                                                         $7, 574.      $409 791.                                        52X      $31 148    919.
                  975      767          068              $3, 406.                    $1, 639, 165.   $189.              36X      $48 784   675.
            1   . 097      334      1 . 336
                                                                       $320 760.     $1, 283 040.     $85. 15
                                                    40       406.                                                       22X      $15 608   761.
                  645      612          448                             $45 143.       $180 573.
                                                             155.      $140 079.                     U35.          1 . 13X       :U5 , 979 . 949. 20
                                                                                       $560 318.     $228.         1. 70X        $32. 959, 908.
    TOTALS 41, 329         338        352          360 $80 293. 53 $5 824 723.
                                                                                 43 $23 298 893.     $223.       MEAN            $40 989, 893.
                                                                                                                  VAR          1. 2375035503E+15
                                                                                                                  srD            3:5178168. 6604
                                                                                                                srD ERR          11726056. 2201
                                                                                                                   90:1         $21 700 531.
                                                                                                                 U 90X          $60 279. 256. 27
                                                                                                                                             28. 61X
- - - - ----          --------------------------------------------------------------
                                               . . ..
                                                  . . . . . . .




                                          APPENDIX D





                            ABSENT PARENT MARITAL ST A TUS

                                      NEVER MARR I ED. . 127
                                     MARR I ED.
                                     SEPARATED. . . . .. 94
                                     DIVORCED.. . . .. . 74
                                     UNKNOWN. . . .




                         ABSENT PARENT PROFILE DATA

                           AVERAGE AVERAGE
;.R
        S T (.4 T E
                             AGE
                        ABSENT PARENT CUSTOD I AL PARENT
                                                  AGE	
                                                                    AVERAGE
                                                                    AFDC AVERAGE ABSENT PARENT
                                                                  GRANT AMOUNT* SUPPORT AMOUNT.


                                                                       $249.             $99..
'1 I	                                                                   Z444.
                                                                                        $1Iy6. (il)
                                                                        $446. 19        $176. .
;\JC	                                                                   $261.           $130.
tJH	                                                                    $235. (H)       Z118.
                                                                        $275.           $124. ()8
                                                                       $369. 48         $190.
                                   3(1	                                $355. S6         $147.
                                                                                1. 12   $117.
i1EAN
                                                                       :.32t) . 93      $144.
*F'           CASE AMOUNT




                                                   14­

--------------------------------------------------------------------
                                   -..
                                .......-
                                -:"" ..'      ,,
                                             ....,




                                           APPENDIX E





                 STATISTICAL DATA BY STATE




                             SAMPLE         SAMPLE            EMPLOYER
      STATE   SAMPLE          CASES                                        DEPENDENT
                                             CASES           INSURANCE
              SIZE           DROF'                                          HEAL TH    DEPENDENT
                                           REV I EWED        CONTACTED     INSURANCE   ENROLLED
                                                                           AVAILABLE
AF,                  4(1
                     4(1
                     4(1 

                                                      oJ 



                     4(1
                     4(1
                                                                    31)
                  4(1
                     40                               -co
                                                                    3(:)

      TOTAL      360
                                                                   266          194        112




                                               15­

::::

                                                              APPENDIX F

       DEPARTMENT OF HEALTH &. HUMAN    RVICES	            Offce of

       Refer to: 	                                         Child Support Enforcement

                                                           Memorandum

       Office of Child Supp rt   Enforcement
Subject: OIG Draft
                 Report: . Child Support Enforcement/Absent Parent
       Medical Liability, . OAI-86-07-00045
To:	   Richard P. Kusserow
       Inspec tor    General

       As Bob Harris, OCSE Associate Deputy Director, indicated in the
       exit conference with your staff , we are in agreement with the
       recommendations contained in draft audit report on Absent

       Parent Medical Liaibili ty and are making medical support a high
       priority. It should be noted that two states contained in your

       sample legitimately did not have legislation in place for all

       or part of the audit period. " I agree that it is appropriate to

       include them in your projections, but recomend that the final
       report acknowledge that implementation of medical support

       legislation had not yet occurred in these    states.California
       enacted its legislation on August 26, 1986 and imlemented it
       on March - 10, 1987. Pennsylvania enacted its legislation on
       October 18, 1985, and implemented it on January 28, 1986,

       during the audit period, and within the period required by

       Federal s ta tu te .
       I look forward to the resul ts of the second part of your study

       to be done next year focusing on medical support ordered .but
       not pursued. The Office of Child Support Enforcement bas begun

       discussions with its counterparts in the Health Car.e Financing
       Administration to address specific areas for review in that

       area. We will share the ideas which result from these

       discussions for your use in planning your study.
       Thank you for the opportunity	               nt

                                                  yne A. Stanton





                                       16­

          '!
                                                                                       Health Care
          DEPARTMENT OF HEALTH &. HUMAN SERVICES                                       Financing Administration



                        7 19
                                                                                       Memorandum
                 /I 2
Date

From       Adto
             L.
           Wi1Hmn             Ro, M.

Subject
             Dr Re:
           OIG
          Liilty,        -Ch Surt Enorct/Abent Pat
                  a 0A- 86-Q7-                                                         Meca
                               00045

          Office of
                   Inr   th




          We ha revew        drt rert an are ve intete in th
          fings.   Althgh th
                                    the OIG

          reltivey sm sale, the is clea incation
                                             on data derive fra' a

                                        su
                                              coclusions are



          do by Stte chd        enorcet          tht rrre shoud be
                                           agenies to identify an enorce
          IIca        thgh abent   paents.
          We wi to no tht th data collec though
          acvities ccuc by        8Ut    enart    th         relecthe       st
          fir th rrnt of
          thi: peo:c wodiIlentation
          a:uct to nctor he we th
                                         .ichd
                                                    agencies during
                                        of the ne reation. We wod
          We lo fa: to reew th rets of th OIG
                                  with th pasage of ti an exience.
                                                                            stye afte th
                        su reemts
          Stf fr th Heth Ca Fig Adtrtion an
                                                rki tw
                                                           whch wil be
                                                                syte is

                                                       were imlE!te.


          reewSU                     ar pla to coct
          Ch          Enorcet
                 in Fica Yea (CC)m:to                         progLam
                                                                              the Office of

                                          Stte'
                                         1988 to
                                                 iIlemtation
          meca su rets. We ar in the pros of woki with OC    of
                                                                               joint




          in deopin prl to reew th State. We wi cey ta
          wod be intete in OIG st any    ob                                 prl.
          into coidetion  th         in deoping ou
          th st.
                                                             Also, we
                                         ad tian  data avale  fra                                  OIG on

          Wesu
          reticn       tht th on na
                          LLlCuda.ti
                         th
                                               paculy
                                             sut         th a high
                                                    enorct        by OIG,
          prorty  actvity. Th grte the eais on meca Strt
                                          CC ma meca



          enort,     th           casavi wi be rezed.

          'l
                                 rrre




               yo for th OQrtty             on th dr rep.

                                                        to




                                                               17 ­

